OIG Audit Report GR-39-99-003
Office of Community Oriented Policing Services Grants to the Newport News, Virginia, Police Department
Audit Report GR-39-99-003
August 1999
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of three grants awarded by the U.S Department of Justice (DOJ) Office of Community Oriented Policing Services (COPS), to the Newport News, Virginia Police Department (Police Department).  The purpose of the grants is to enhance community policing.  The Police Department was awarded a total of $2,775,000 to hire or rehire 37 additional sworn police officers under the Universal Hiring Program (UHP), $151,145 to redeploy 26.5 sworn officers full-time equivalent (FTE) under the Making Officer Redeployment Effective (MORE) program of 1995, and $1,552,500 to redeploy 65.9 FTEs under the MORE program of 1996.
	
	The Police Department did not fully meet the terms and conditions of the grants. We found the following discrepancies with regard to meeting grant conditions:

As of June 30, 1998, the Police Department charged $650,367 in unallowable grant costs for the UHP grant and was reimbursed $489,408. The unallowable costs reimbursed included expenditures for items such as motor vehicles, court pay, overtime, and wearing apparel.

	The Police Department did not provide documentation to support the actual redeployment of officers into community policing.  Therefore, the Police Department did not demonstrate that it enhanced community policing efforts using the funds provided under the COPS MORE grant.  Thus, the total grant awards of the MORE 1995 ($151,145) and the MORE 1996 ($1,552,500) grants are considered unsupported.
	
	Neither the Officer Progress Reports nor the Annual Department Reports were submitted to COPS; most Financial Status Reports were submitted late to the Office of Justice Programs (OJP).

Police Department officials indicated they were offered a $375,000 UHP supplemental award and an additional 5 positions by COPS, but did not accept the supplemental award because they could not meet the matching requirement for the number of supplemental officers.  They also indicated that they notified COPS of this decision.  The UHP supplemental award documents were not signed by the City of Newport News (City), but COPS and OJP were not aware that the City did not accept the supplemental award.  In their on-site visit report, the OJP recommended that the 
City contact their Grant Advisor at the COPS Program Office to inform COPS of their decision.  Therefore, COPS should deobligate the supplemental award of $375,000 and put it to better use.

	These items are discussed in greater detail in the Findings and recommendations section of the report.  Our scope and methodology appear in Appendix II.